5.
PETITIONER'S CERTIFICATION
Petitioner ALBERTO SOALR under the penalty
of perjury certify that rehearing is restricted to the
grounds specified paragraph 2 Rule 44 and that it
is presented in good faith and not for delay.
Dated July 7th, 2021

5.
PETITIONER'S CERTIFICATION
Petitioner ALBERTO SOALR under the penalty
of perjury certify that rehearing is restricted to the
grounds specified paragraph 2 Rule 44 and that it
is presented in good faith and not for delay.
Dated July 7th, 2021
/ALBERTO SOLAR SOMOHANO/
Petitioner

APPENDIX A
No. 20-7407
In the Supreme Court of the United States
ALBERTO SOLAR-SOMOHANO,

Petitioner
v.
THE COCA-COLA COMPANY-UNITED STATES

Respondents,
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Federal Circuit
MOTION FOR GOVERNMENTS RESPONSE

The Petitioner, ALBERTO SOLAR-SOMOHANO hereby pursuant to Rule

21 motioning the CoRrt111 to direct the United States to file a response to the
question presented 121 for they have filed a waiver not to answer pi what the
question shows the Court should know the cause led to the appointment
problem that US v. Arthrex does not resolve only resolved by Field v. Clark,
through this case the Court is require to take in the first place preserved
constitutional challenge objection under Ryder v. US RI

Respondents did not consent to the filing of this motion.
2
"Whether the 2002 Intellectual Property High Technology Technical Amendments Act be
repealed, missing the section that made the entire act inoperable, and that is why the 2008
Amendment of Titles 35/6 & 15/1067 Act which is why appointment clause problem"
3
United States was bound file response they intervened responding to certified question
below that is yet to be decided currently stayed_
4

"We think that one who makes a timely challenge to the constitutional validity of the
appointment of an officer who adjudicates his case is entitled to a decision on the merits
of the question, and whatever relief may be appropriate if a violation indeed occurred"

2.
CONCLUSION
The Court should request the United States to say what they didn't want
to say that they did said below that no court have ever said what SolarSomohano constitutional question challenge says before it's too late they
raking the Court getting away with Arthrex a fake.
Filed May 3rd, 2021
IALBERTO SO

